 State of California's Administration of the

Fire Management Assistance Grant Program

              for the Pine Fire
                                                                                       Offce af Inspectar General
                                                                                       Offce af Emei:r:ency Management Oversight

                                                                                      u.s. Department of Homeland Security
                                                                                      300 Frank H. Ogawa Plaza, SIc. 275
                                                                                      Oakland, California 946 i 2


                                                                               (~\ HOllt:land

                                                                                ~""Di:t Securi ty

                                                               September 26, 2008

                                                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of2002 (Public Law J 07-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audits, inspections, and special reports published as paii of
our oversight responsibilities to promote economy, effectiveness, and efficiency within the
depaiiment.

The attached report presents the results of
                                         the audit of 
 the Fire Management Assistance Grant for the
Pine Fire. We contracted with the independent public accounting firm of Cotton & Company LLP to
perform the audit. The contract required that Cotton & Company LLP perfonn its audit according to
generally accepted government auditing standards and guidance from the Robert T. Stafford Disaster
Relief and Emergency Assistance Act, Title 44 of the Code of Federal Regulations, and the Offce of
Management and Budget. Cotton & Company repOlied an area where the Regional Administrator,
Federal Emergency Management Agency, Region ix can improve the management and
administration of 
         the Fire Management Assistance Grant Program. In addition, Cotton & Compnny
repoiied two areas in which the State of 
      California's administration of 
 the Fire Management
Assistance Grant Program could be improved. The report contains seven recommendations
addressed to the Regional Administrator, Federal Emergency Management Agency, Region IX.

Cotton & Company is responsible for the attached auditor's report dated August 29,2008, and the
conclusions expressed in the report. The recommendations herein have been discussed in draft with
those responsible for implementation. It is our hope that this report will result in more effective,
eftcient, and economical operations. We express our appreciation to all of 
   those who contributed to
the preparation of this report.


                                                                      RJx:d~ ~ll¿tL~~)
                                                                     Robert J. L~trico
                                                                     Western Regional Director
 C   (-'
  OttOlleJ'
Conipany
                                                                                Cotton n' Company UP
                                                                                635 Slat('rs Lane
                                                                                4'" Floor
                                                                                Alexandria, VA 22314
                                                                                                        P: 703.ß16.6701
                                                                                                        F: 703.816.094 i
                                                                                                        www.(oiioncpa.mm




  August 29, 2008


  Western Regional Director
  Office of 
   Emergency Management Oversight
  Office of Inspector General
  U.S. Department of 
          Homeland Security
  300 Frank H. Ogawa Plaza, Stc. 275
  Oakland, California 94612


  Cotton & Company LLP perfonned an audit ofthe State of 
 California's management of
  Fcdcral Emergency Management Agency's funds awarded under the Fire Management
  Assistance Grant Program. The audit was performed in accordance with our Task Order
  TPDARCBPA070016, dated September 27,2007.

  This report presents the results of the audit and includes recommendations to help
  improve management of 
               the audited Fire Management Assistance Grant Program.

  Our audit was conducted in accordance with applicable Government Auditing Standards,
  July 2007 revision. Although the audit report comments on costs claimed by the State of
  California, we did not perform a financial audit, the purpose of which would be to render
  an opinion on the State of              Cali   fomi   a's financial statements or funds claimed in Financial
  Status Reports submitted to the Federal Emergency Management Agency.

  We apprcciate the opportunity to have conducted this audit. Should you have any
  questions, or if we can be of further assistance, please contact me at 703.836.6701 or
  mikeg~cottoncpa.com.

  Sincerely,

  COTTON & COMPANY LLP

      /1'    ./h
              /
       /'7 /-1. . /__
                  I Ai
  / /

   ,.
   i . //

       .//

     I / / /,-­
       / )-'\./ / . i/ i .,1 ,.r




  Michael W. Gillespie, CPA, CFE
  Operations Managing Partner
                                                                                                                                                             r:~i
                                                                                                                                                               :.~


                                                                                                                                                             ij
Table of Contents/Abbreviations                                                                                                                              H
                                                                                                                                                             i'i
                                                                                                                                                             '.1

                                                                                                                                                             r. :

                                                                                                                                                             ;'!
                                                                                                                                                             , .

 Executive Summary............ ". ........ ............... .... ............ ....... ................ ............ ........ .............. ........ 1        : i



                                                                                                                                                             :!
 Background......... .................. ..... ................... ... ............... ............................................ ........... .........2


 Results of Audit...... .............. ....... ............. ..................... ............................ .............. ................... ,... 4


      OES Payment Processes ............ ........... .................... ..... ..... ............... ............... ...................... ... 4

      OES Grant Compliance... ........................... ............... .... ..................... ................... .... ........... .....7

      Other Audit Matters ........ ............ .............. ... ................................ .................... ....................... 10

                                                                                                                                                             i:
                                                                                                                                                             ;.
 Appendices                                                                                                                                                  ; i




      Appendix A:             Objectives, Scope, and Methodology...............................................................11                            i:

                                                                                                                                                             , ;

      Appendix B              Grant Funding for the Pine Fire ....................................................................... 13
      Appendix c:             Details Regarding OES Payment Processes and PW Review......................... 14



 Abbreviations

      CALF      IRE           California Department of                Forestry and Fire Protection (formerly, CDF)

      CFR                     Code of 
     Federal Regulations

      CHP                     California Highway Patrol

      DHS                     U.S. Department ofHomeland Security

      FEMA                    Federal Emergency Management Agency

      FMAG                    Fire Management Assistance Grant

      GAR                     Governor's Authorized Representative

      OES                     California Governor's Officc of Emergency Services

      OiG                     Offce of Inspector General

      OMB                               Management and Budget

                              Office of 


      PW                      Proj ect Worksheets

      USFS                    United States Forest Service

Executive Summary
                  Cotton & Company LLP audited the State of California's administration of
                  the Fire Management Assistance Grant (FMAG) Program for the Pine Fire
                  (FMAG Declaration 2528). The audit objective was to determine if the state
                  administered the FMAG Program in an efficient and effective manner. To
                  accomplish the objective, we considered the overall impact of mateiial
                  deficiencies on grant program administration. Specifically, we detennined how
                  well the state (1) coordinated and communicated with the Federal Emergency
                  Management Agency (FEMA) and subgrant applicants, (2) ensured
                  compliance with federal laws and FEMA guidelines, and (3) accounted for
                  and expended FMAG Program funds. Appendix A contains additional details
                  on the objectives, scope, and methodology of                    this audit.



                  FEMA Region ix awarded $6,772,444 under FMAG Declaration 2528 to the
                  California Governor's Office of 
                    Emergency Services (OES) on November 4,
                  2004. At completion of our fieldwork, May 28, 2008, FEMA had not closed
                  this declaration. Although the audit scope included a review of costs
                  reimbursed under the grant, a financial audit of 
                those costs was not perfOlmed.
                  Accordingly, we do not express an opinion on the state's financial statements
                  or the funds claimed in financial status repoiis submitted to FEMA.

                  OES could have administered the Pine Fire grant in a more efficient and
                  effective manner by complying with federal laws and FEMA regulations.
                  Specifically, OES' processes forreviewing the eligibility of applicant costs
                  was not adequate and it did not always comply with FMAG Program
                  requirements. In addition, FEMA Region ix did not enforce some FMAG
                  Program regulations relating to verifying incident period infonnation
                  submitted by the state and grant closeout requirements.

                  We recommend that the Regional Administrator, FEMA Region ix require
                  OES to: (l) improve its processes for reviewing incuHed costs, (2) ensure that
                  each applicant has reliable processes to review incurred costs, (3) meet with
                  FEMA to determine if cooperative agreements need to be revised, and
                  (4) comply with the regulations governing the grant. We also recommend that
                  the Regional Administrator: (5) disallow $360,844 of 
                  ineligible federal share
                  costs, (6) disallow $2,660,694 of 
                 unsupported federal share costs, and
                  (7) ensure OES' and FEMA' s compliance with federal grant regulations.

                  We hcld an exit conference with FEMA Region iX and OES on May 28,
                  2008. FEMA and OES generally concuHed with our findings and
                  recommendations. A synopsis of their verbal comments is included in the
                  Results of Audit section of this report.




      State of California's Administration of the Fire l\lanagement Assistance Grant Program
                                          for the Pine Fire

                                                        Page 1

Background
                  The Robert T. Stafford Disaster Relief and Emergency Assistance Act,
                  (Stafford Act), signed into law November 23, 1988, authorizes the President
                  to provide federal funds to state and 10eaI governments under the FMAG
                  Program for mitigation, management, and control of any fire burning on public
                  or private forestland or grassland. The FMAG Program replaced the Fire
                  Suppression Assistance Program on October 30, 2001. Title 44, Code of
                  Federal Regulations (44 CFR), Part 204, provides procedures for declaration
                  and grants management processes for the FMAG Program and details
                  applicant eligibility and eligibility of costs to be considered under the
                  program.

                  Declaration Process



                  A declaration request must be submitted while a fire is burning uncontrolled                ~:
                  and threatens such destruction as would constitute a major disaster. The
                  Governor or the Governor's Authorized Representative (GAR) is authorized to
                  submit requests to the FEMA Regional Administrator or Regional Fire Duty
                  Liaison for fire management declarations. Due to the magnitude and impact of
                  a fire, the Governor or GAR can expedite the declaration process by verbally
                  rcquesting the declaration, but must follow-up promptly after the date of an
                  initial telephone request with all official forms and written information.

                  Upon declaration approval by FEMA, the Governor or GAR will enter into a
                  standing FEMA-State Agreement (the Agrcement) for the declared fire and
                  for future declared fires in that calendar year. The state must have a current
                  and signed Agreement before receiving federal funding under the FMAG
                  Program. The Agreement states the undcrstandings, commitments, and
                  conditions under which FEMA will provide federal assistance, including the
                  75% federal and 25% non-fèderal cost share provision and articles of agreement
                  necessary for the administration of 
             the grants. The Agreement must identify
                  the state legislative authority for firefighting, as well as the state's compliance
                  with laws, regulations, and other provisions applicable to the FMAG Program.

                             the Agreement signed and executed by the Governor on May 28,
                  By virtue of 


                  2004, OES serves as grantee for all FMAG Program funding in the Statc of
                  Califomia.

                  Grant Application and Reimbursement Process

                 Following a declaration, the state is rcquircd to submit a grant application
                 package to the FEMA Regional Administrator within 9 months of        the
                 declaration. The Regional Administrator may grant an extension of up to
                 3 months upon receipt of a written request from the state that includes the
                 justification for an extension. The grantee must document the total eligible


      State of California's Administration of the Fire Management Assistance Grant Program
                                          for the Pine Fire

                                                          Page 2

                                                                                                                             ::1 ;j
                                                                                                                             ~:,

                                                                                                                             "1


                                                                                                                             lj
                                                                                                                             f":
                                                                                                                             ,.,
                           eosts for a declared fire on Project Worksheets (PWs), which are submitted                        Li
                                                                                                                             ~,
                                                                                                                             ¡ ~
                           with the grant application. The Regional Administrator has 45 days from the                       i
                                                                                                                             i
                           receipt of 
 the state's initial grant application, or an amendment to the state's
                           grant application, to approve or deny the application package or amendment,                       ¡
                            or to notify the state of a delay.

                                                                                                                             I:
                                                                                                                             I'
                           By submitting PWs, the grantee certifies that all reported costs were incurred
                           for work that was performed in compliance with laws, federal regulations and                      I


                           FMAG Program policy and guidance, as well as terms and conditions outlined
                            in the FMAG Program FEMA-State Agreement. Upon approval of                         the grant

                           application, FEMA obligates funds after detennining that: (1) the state's
                                                                                                                             I
                           eligible costs meet or exceed the individual or cumulative fire cost thresholds;                  l

                           and (2) the state has up-to-date Public Assistance State Administrative and
                           Hazard Mitigation Plans approved by the Regional Administrator.

                           Subgrantee requests for FMAG Program funding are submitted on a Request                           ,.
                                                                                                                             i
                                                                                                                             r!
                           for Fire Management Assistance Sub 
 grant (FEMA Form 90- 133) to the grantee
                           according to state procedures and within timelines set by the grantee. This
                           request must be submitted not more than 30 days after the close of                the incident
                           period. The grantee wil review and forward the request to the Regional
                           Administrator for final review and deteimination.

                           On July 14,2004, FEMA declared the Pine Fire eligible for the FMAG
                           Program and established an incident period of July 13 through July 21, 2004.
                           On April 30, 2008, FEMA Region ix issued an amendment to the grant and
                           corrected the incident start date to July 12, 2004, on Exhibit E of the
                           FEMA-State Agreement. On September 17, 2004, FEMA Region ix
                           approved the following four applicants! as eligible to receive FMAG funds
                           under 44 CFR 204.51:

                                 · Los Angeles County


                                 · Califol1ia Highway Patrol (CHP)



                                 · California Depaiiment of 
                  Transportation

                                 · California Department of Forestry and Fire Protection (CALFIRE ­
                                       formerly, CDF)

                           OES was also approved to receive FMAG funds for the administration of                      the
                           grant. Grant funding for the Pine Fire is shown in Appendix B.

i Under Title 44 eFR, Chapter 1, Part 204, Fire Management Assistance Grant Program, applicants submit an
application to the grantee for a subgranl. This regulation further defines a subgrantee as "an applicani that is awarded a
subgrant." Accordingly. rMAG Program regulations use the terms applicani and subgranlee interchangeably.


              State of Caliornia's Administration of the Fire Managcfft'nt Assistance Grant Program

                                                  for the Pine Fire


                                                                  Page 3

                                                                                                      I

                                                                                                      t
                                                                                                      f


Results of Audit                                                                                      i
                                                                                                      ¡



                   OES' Response and Recovery Division could have managed the Pine Firc
                   grant more effciently and effectively by complying with federal laws and
                   FEMA requirements when reviewing applicant costs and administering
                   program processes. In addition, FEMA should have required OES to follow
                   FMAG grant administration processes. Specifically, OES needed better
                   proeesses for reviewing the eligibility of applicant costs and to ensure
                   compliance with FMAG Program requirements. Likewise, FEMA Region ix
                   needed to enforce those requirements.

     DES Payment Processes
                   OES needs to (a) have adequate processes in place for reviewing the eligibility
                   of applicant costs and (b) spend an adequate amount of time reviewing
                   documentation. Suppoiiing documentation from three applicants was not
                   sufficiently reviewed to ensure that costs incurred were eligible, as required
                   by 44 CFR 204.53. Two examples are provided below.

                       · Dctailed review of available supporting documentation at CALF          IRE
                            showed that CALFIRE did not have adequate documentation to
                            support claims or was reimbursed for costs that occurrcd outside the
                            incident period on two PWs. OES spent less than 4 hours at CALPIRE
                            headquarters reviewing documentation supporting one PW with
                            reported costs of over $4.3 million. For the other PW with total
                            reported costs of ovcr $3.8 milion submitted on a cooperative
                            agreement between CALFIRE and the U.S. Forest Service (USFS),
                            OES ncither requested CALFIRE to providc available documentation
                            for review, nor vcrified that CALPIRE had adequate review processes.

                       · OES processed all five PWs submitted by Los Angeles County without
                          reviewing documentation available at the county. In this instance, our
                          review showed that one PW, in its entirety, contained ineligible costs.

                   According to 44 CFR 204.53, " By submitting the applicants' Project
                   Worksheets to us (FEMA), the Grantee is certifying that all costs reported on
                   applicant Project Workshcets wcre incurred tòr work that was performed in
                   compliancc with FEMA laws, regulations, policy and guidance applicable to
                   the Fire Management Assistance Grant Program, as well as with the tenns and
                   conditions outlined for the administration of the grant in the FEMA-State
                   Agrcement for the Firc Management Assistance Grant Program.'.

                   In addition, 44 CFR 204.42 addresses eligible costs and states that all eligible
                   work and related costs must be associatcd with the incident period of a
                   declared fire.

       State of California's Administration of the Fin'l\lanagemenl Assistance Grant Progi-am
                                           for the Pine Fire

                                                       Pa~e ..
                                                                                                                    ;1



                                                                                                                        1
                                                                                                                        i

                                                                                                                        :!




                          Further, 44 CFR 13.42 requires the retention of all financial and programmatie
                          records, supporting documents, statistical records, and other records of
                          grantees and subgrantees and 44 CFR 13.20(6) says that accounting records
                          must be supported by such source documentation as canceled checks, paid
                          bills, payrolls, time and attendance records, and contract and sub 

                                                                                               grant award
                          documents.
                                                                                                                    ,.
                                                                                                                    ;
                          Finally, Office of Management and Budget (OMB) Circular A-87, Cost
                          Principlesfor State, Local, and indian Tribal Governments, Attachment A, C.               fi
                          Basic Guidelines, j., requires that, to be allowable under federal awards, costs
                          must be adequately supported.

                          OES should have perfonned a sufficient review of claimed costs to ensure
                          compliance with FEMA laws, regulations, and policy and guidance applicable
                          to the FMAG Program for three of 
  the four applicants (CALFIRE, Los
                          Angeles County, and CHP\ Based on available documentation we reviewed,                    !,

                          over $3 million in federal share reimbursements is at risk for three PWs that
                          we identify and discuss in Appendix C and summarize below.

                               · CALFIRE and OES did not sufficiently review supporting
                                  documentation for all costs associated with PW 2- l, and thus a
                                  federal-share amount of $2,660,694 was unsuppoiied. The federal
                                  share reimbursed to OES under PW 2-1 was $2,873,264. We reviewed
                                    three mutual-aid invoices, the only suppOliing documentation available
                                    from USFS. The invoices totaled $283,427, or $212,570 federal share.
                                   Thus, the federal share not reviewed was $2,660,694 ($2,873,264
                                   minus $212,570).

                              · Based on the three PW s discussed in Appendix C, and the supporting
                                  documentation examined, we identified an aòditional $360,844 of
                                  federal-share ineligible costs as follows:

                                                   PWNo.            Ineligible Costs
                                                   2-1                      $60,386
                                                   2-0                       54,367
                                                   6                        246.09 i
                                                   Total                  $360.844

                 Recommendations
                          We recommend that the Regional Administrator. FEMA Region ix, require
                          OES to:


2 We also reviewed PW J submitted by CI-P. \Ve determined that the costs ihal were not supported were immateriaL.

             State of California's Administration of the Fire Management Assistance Crant Program

                                                 for the Pine Fire


                                                         Page 5

                                                                                                   ~i.,.

                                                                                                   r


                                                                                                   ,
                                                                                                   fì
                                                                                                   ~. '1
                                                                                                   :.~

             Recommendation #1. Improve its processes for reviewing incurred costs
             submitted by applicants, such as reconciling a pre-determined, statistical
             amount of supporting documentation against PW eost categories (equipment,
             labor, and contracts).

            Recommendation #2. Ensure that each applicant establishes a reliable
            process for reviewing incurred costs prior to submitting PWs to OES.

            Recommendation #3. Meet with the FMAG Program Analyst and detennine
            if cooperative agreements similar to the agreement between CALFIRE and
            USFS need to be revised to require a sufficient amount of supporting
            documentation to be available for review in the event ofFMAG Program
            declaration.

            We also recommend that the Regional Administrator, FEMA Region IX:

            Recommendation #4. Disallow $360,844, federal-share, in ineligible costs
            included in the PWs submitted by OES.

            Recommendation #5. Disallow unsupported federal-share costs of
            $2,660,694 under PW 2-1 and require OES to comply with FMAG regulations
            for obtaining and retaining supporting documentation.

    Management Comments

            FEMA Region IX's FMAG Program Analyst concurred with the five
            recommendations. We spoke with the FMAG Program Analyst at the
            May 28, 2008, exit conference and then again in a phone conversation on
            July 14,2008. In the latter conversation, we infonned the analyst that we
            would be recommending disallowing most of       the federal-share costs under
            PW 2- 1. On July 23, 2008, the FMAG program analyst informed us by email
            and said he did not have any "issues with the facts as presented in the report",
            but had concems about disallowing all the costs (Recommendation #5). The
            final dollar value, if any, will be detem1ined based on FEMA's additional
            work on determining available support with the state.

            At the May 28, 2008 exIt conference, OES said that, as a general rule for
            reviewing all PWs, it did not have the time or staffing rcsources to reviev..
            cvery line item on a PW. Moreover, even though it previously acknowledged
            that the quality of CALFIRE PWs was not good, it considered that the four
            hours spent reviewing PW 2-0 (CALF 
             IRE), or over $4.3 million in total
            incurred costs, was sufficient. OES said that it used its best judgment to
            review selected costs for accuracy and reliabilIty.

            Nevertheless, OES generally ab'Teed at the exit conference that it needed to
            improve its PW billing review processes. OES said that it plans to be more

State of California's Administration of the Fire Management Assistance Graiit Program
                                    for tlii' Pine Fire

                                                   Page 6

                                                                                                      .,~
                                                                                                     ",,
                                                                                                     "
                                                                                                     I;'
                                                                                                     t:!

                                                                                                     n

                                                                                                     Ij"
                                                                                                     I:
                                                                                                     :1

              vigilant in reviewing agencies that incur large labor costs. OES also said it          Î!
                                                                                                     ,;

              would perform more timesheet sampling for all applicants. In addition, OES
              acknowledged that it should have correeted PWs where costs were incurred

              for activities outside the incident period.


OES Grant Compliance

              OES needs to comply with FMAG Program requirements, and FEMA needs
              to enforce those requirements. Specifically, OES should have fied a separate
              PW for costs billed by USFS to CALFIRE and requested an extension from
              FEMA to close the grant. In addition, OES submitted an inaccurate incident
              period start date to FEMA and FEMA did not verify the aceuracy of
              OES-submitted incident-period dates. Furthermore, FEMA should have
              ensured that PWs were filed in every instance, and that grant closeout
              deadlines were met according to FMAG Program regulations.

              OES said that fire activity in 2004 overwhelmed staff assigned to handle these
              matters. FEMA Region ix indicated that it did not enforce deadlines with
              grantees because of an inordinate amount of fire and disastcr activity in
              calendar year 2004.

              CFR Parts 204 and 13.50 define the incident period, requirements tor PW s,
              and requirements for grant closeout as follows:

                  · 44 CFR 204.3 - The incident period is the time interval during which
                      the declared fire occurs. The Regional Administrator in consultation
                      with the GAR and the principal advisor wil establish the incident
                      period.

                  · 44 CFR 204.23(a) and 204.42 - The Region will verify the information
                      submitted in the state's request. The Regional Administrator must
                      approve PWs or amendments to PWs. Before obligating federal funds,
                      thc Regional Administrator must review and approve the initial grant
                      application, along with PWs submitted with the application and any
                      subsequent amendments to the application.

                  · 44 CFR 13.50(b) - Within 90 days aftcr the expiration or termination
                      of  the grant, the grantee must submit the final program perfoimance
                      report, the final IÌnancial status report, and all other reports required as
                      a condition of 
 the grant. Upon request by the grantee, federal agencies
                      may extend this timeframe.




  State of California's Administration of the Fire Management Assistance Grant Program
                                      for the Pine Fire

                                         Page 7

                                                                                                                       f.
                                                                                                                       ~ '1




                                                                                                                       ,j
                                                                                                                       ¡,
                                                                                                                       ..
                                                                                                                       '1
                                                                                                                       I:
                          Incident Period                                                                              ,,
                                                                                                                       :,f
                                                                                                                       )j
                                                                                                                       :.¡
                                                                                                                       ::
                          OES provided FEMA Region ix an erroneous incident start date (July 13,
                                                                                                                       ;.
                          2004 instead of July 12, 2004) but could not explain why since the former Fire               ~~

                          Duty Offcer for FMAG at OES was no longer at OES. Providing an
                          inaceurate stait date precluded applicants from submitting costs incurred for
                          July 12,2004 (althoughsome applicants did, in violation of               the original

                          incident start date). In addition, FEMA did not ensure the accuracy of  the                  ,; ;,
                                                                                                                            ;

                          incident stait date submitted by the grantee on the Exhibit E Amendment to
                          the Agreement for the FMAG Program as required by 44 CFR 204.23(a) and                       :i

                          did not properly review and approve the initial grant application before                     ¡~
                                                                                                                       !.
                          obligating federal funds as required by 44 CFR 204.42                                        ¡¡
                                                                                                                       :,

                          The original Exhibit E, filed on October 18, 2004, established the incident
                          period from July 13 through July 2 l, 2004 (although the correct start date was
                          subsequently determined to be July 12). A review of claimed costs from
                          applicants, however, showed that costs were submitted and approved for dates
                          before and after the original incident period. We notified FEMA Region iX
                          about the matter duiing the audit, and Region ix managemcii.t determined that
                          errors occurred in verifying the incident period. FEMA said that it did not
                          crosscheck Exhibit E dates against records maintained internally, such as the
                          "decision checklist" or the ICS-209, the Incident Status Summary Report.                     i

                          FEMA also said that it is not "atypical" that a grantee records an inaccurate
                          incident period, thus requiring FEMA to issue an amendment to Exhibit E.
                          FEMA fuiiher maintained that, based on its internal records, costs submitted
                          by applicants for July 12,2004 should have been eligible.

                          Accordingly, after recognizing that the July 2004 incident start date was
                          erroneous, FEMA Region ix amended Exhibit E on April 30, 2008, to
                          establish July 12, 2004, as the incident start date.

                          Because the original Exhibit E recorded an inaccurate incident start date of
                          July 13, applicants could not submit costs incurred for July 12 (although some
                          applicants did, in violation of the original incident start date'). Therefore,
                          some applicants may not have claimed costs that are now eligible. For
                          example, we saw evidence in which the Los Angeles Administrative Office
                          did not approve costs incurred by some of its agencies on July 12,2004.

                          Project Worksheets

                          OES should have submitted a PW for costs attributed to the CALFlRE-USFS
                          cooperative agreement, totaling over $3.8 million. While OES referred to this
                          as PW 2-1, a PW was never submitted to FEÌ\/lA. For these costs. OES only

, See OES Payment Processes at Appendix C of this report for a discussion of cost~ submitted oulside the original or
amended incident period.

             State of California's Administration of the Fire Management Assistance Grant Pnigram

                                                 for ihc Piiie Fire


                                                                Page 8

            submitted a cost activity report to FEMA Region ix, along with an amended
            Standard Form 424, Application for Federal Assistance. FEMA processed
            and paid the claim without a PW.

            Under 44 CFR 204.52(e)(2) and (3), applicants should submit PWs through
            the grantee for approval and transmittal to the Regional Administrator as
            amendments to the state's application. While the grantee can deteimine the
            deadline for an applicant to submit completed PWs; the deadline must be no
            later than 6 months from the close of   the incident period. At the request of the
            grantee, a Regional Administrator may grant an extension of up to 3 months if
            so justified by the grantee in its extension request.

            We brought the matter to FEMA's attention during the audit, but Region ix
            program staff could not explain why the claim was paid without a PW.
            Nevertheless, FEMA paid federal-share costs for this claim, or over
            $2.8 million. FEMA Region iX explained that it did not want to penalize
            OES when it was overburdened with fire activity. Selectively enforcing some
            regulations, however, weakens overall program compliance at the grantee
            leveL.

            Grant Closeout


            Under 44 CFR 13.50(b), the grantee must submit all financial, perfonnance
            and other reports required as a condition of 
 the grant within 90 days after
            grant expiration or termination. FEMA can extend this timeframe upon
            request by a grantee. OES did not, however, request an extension to closeout
            the grant and it remains open, almost 4 years after the incident period.

            FEMA Region ix also should have ensured that the grant was closed in a
            timely manner. The Pine Fire grant was not closed within 90 days of      the
            performance period expiration date of April i 3, 2005. The FMAG Program
            Analyst for FEMA Region ix said that, generally, it did not require states in
            Region ix to file closeout extensions. In addition, FEMA also said that the
            grant performance peiiod end date that the grantee entered on the Standard
            Forni 424, which was April 13, 2005, for the Pine Fire, is not reliable,
            claiming that the grantee "cannot possibly know when the perforniance period
            should end."

   Recommendations
            We recommend that the Regional Administrator, FEMA Region ix, require
            OES to:

            Recommendation #6. (a) Ensure that incident peiiods are accurate, (b) tile
            PWs whenever FMAG Program costs are incurred, and (c) comply with
            F.l1AG Program grant closeout processes.

State of California's Administration of the Fire Management Assistance Grant Program
                                    for the Pine Fire

                                                  Page 9

                                                                                                   1

                                                                                               "tl
                                                                                                   j
                                                                                                ti
                                                                                               ¡.ij

                                                                                                   'I


                                                                                               n
                                                                                               1:1


              We also recommend that the Regional Administrator, FEMA Region ix,
                                                                                               I
              require its FMAG Program office to:

              Recommendation #7. (a) Ensure that incident dates submitted by grantees on
              Exhibit E are accurate, (b) determine if applicants may submit additional
              claims for costs incurred on July 12,2004, (e) require grantees to submit PWs
              with all cost reports, and (d) complete grant closeout within 90 days of the
              performance period expiration date.

      Management Comments

              The FEMA Region ix FMAG Program Analyst representing Region ix
              concurred with the recommendations. In addition, the FMAG Program
              Analyst agreed to make a decision regarding applicants filing claims for costs
              incurred on July 12, 2004.

              OES said at the exit conference that it would closeout the grant within
              10 days. Its representatives further said that they were waiting to identify
              minor grant closeout costs. OES had no explanation as to why one PW was
              not filcd with FEMA.

Other Audit Matters
              We reported in our review ofPW 2-0 and CALFIRE's supporting
              documentation that CALFIRE dicl not claim all eligible labor costs. Some
              labor costs were unbilled, while other costs were under-billed due to an
              incorrect labor rate. All labor costs were eligible under 44 CFR 204.42. The
              current CALFIRE staff in the Offìce of Accounting Services could not explain
              why the fonner accounting staff did not include unclaimed costs in PWs
              submitted to OES. The aggregate total of federal-share costs unbilled
              ($7,942) ancl under-billed ($7,758) is $15,700.




  State or Caliornia's Administratioii of the Fire Management Assistance Grant Program
                                    for the Pine .Fire

                                        Page) ()
                                                                                                             11

Appendix A
                                                                                                             i,i
Objectives, Scope, and Methodology                                                                           f:1



                                                                                                             !
                      Objectives
                                                                                                             I
                      The objective of the audit was to determine whether the state administered the         i
                      FMAG Program in an efficient and effective manner. To accomplish the                   i
                                                                                                             I
                      objective, we considered the overall impact of material deficiencies on grant          I
                      program administration. Specifically, we determined how well the state
                      (1) coordinated and communicated with FEMA and sub                grant applicants,

                      (2) ensured compliance with federal laws and FEMA guidelines, and
                      (3) accounted for and expended FMAG Program funds.
                                                                                                             i:
                                                                                                             , i

                                                                                                             ii
                      We were not engaged to and did not perform a financial statement audit, the
                      objective of 
 which would be to express an opinion on specified elements,             : i


                      accounts, or items. Accordingly, we neithcr were required to nor expressed an
                      opinion on the costs claimed for the grant programs included in the scope of
                      the audit. Had we been required and performed additional procedures or
                      conducted an audit of the financial statements according to generally accepted
                      auditing standards, other matters might have come to our attention that would
                      have been reported. This report relates only to the programs specified and
                      does not extend to any financial statements of the State of California.

                      Scope

                      We audited the Pine Fire FMAG that was awarded by FEMA to the State of
                      California on November 4,2004. The grant, totaling $6,772,444 (federal
                      share) remained open at the time we completed our fieldwork, May 28, 2008.
                      This FEMA grant award was selected for review, because the award was
                      significantly higher than other fire declarations within the same FEMA
                      Region. The Response and Recovery Division at the California Governor's
                      Office of Emergency Services administered the FMAG Program.

                      Methodology

                      We performed fieldwork at the Califomia Governor.s Offce of 
   Emergency
                      Services, Califomia Department of 
 Transportation, California Department of
                      Forestry and Fire Protection, California Highway Patrol, and Los Angeles
                      County.

                      To obtain an understanding of grant procedures, we reviewed FEMA
                      regulations, the Stafford Act as amended, pertinent sections of
                                                                                    Title 44 of  the
                      CFR, and OMB Circular A-87, Cost Principles/or State, Local, and Indian
                      Tribal Governments. We also held numerous discussions with the FEMA
                      Region ix program analyst during the course of the audit to help us better
                      understand the FMAG Program.

                      To achieve the objective of this audit we:


          St:lte of California's Administraiioii of the Fire Management Assistance Grant Program
                                                for the Pine Fire

                                                            Page 11

                                                                                                               :1
                                                                                                             "i

Appendix A
Objectives, Scope, and Methodology
                                                                                                             !,I
                                                                                                             :1
                                                                                                             i
                                                                                                             !i
                           I) Interviewed FEMA, state, and subgrantee personnel to obtain an                 ¡!
                               understanding of policies and procedures followed and to identify
                               potential internal control weaknesses and their causes;

                           2) Reviewed grant fies to determine whether sufficient documentation
                                was present to support proper administration of the grant;

                           3) Reviewed the state's internal controls over accounting for grants to
                               ensure that the state properly recorded and reported 

                                                                                      grant
                               expenditures;

                          4) Reviewed a sample of 
   project worksheets to detemiine whether grant monies
                                were spent according to laws and regulations.
                                                                                                             ~;

                     We conducted this performance audit according to generally accepted
                     govemment auditing standards. Those standards require that we plan and
                     perfonn the audit to obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions bascd on our audit
                     objectives. We believe that the evidence obtained provides a reasonable basis
                     for our findings and conclusions based on our audit objeetives.

                     We conducted our audit between January 30, 2008, the date of  the entrance
                     teleconference with FEMA Region IX, and May 28, 2008, the date of our exit
                     conferenee at OES headquarters in Rancho Cordova, Califomia, with FEMA
                     and OES officials. We perfoi11ed tìeldwork and interviewed responsible
                     officials at OES and the four applicants in March and April 2008. We
                     performed our work according to Government Auditing Standards prescribed
                     by the Comptroller General of the United States (July 2007 Revision).




         State or Califomia's Admiiiistration of Ihe Fire Manageiieiit Assistance Graiit Program
                                             for thl' Pine Fire

                                                          Pagl' i 2
                                                                                                                ,j
Appendix B                                                                                                      I::
                                                                                                                    '1
Grant Funding for the Pine Fire                                                                                 I¡
                                                                                                                ~,
                                                                                                                1. ,~



                                                                                                                ¡;
                                                                                  Total
        Total Federal   ni'
                                                                                 Amount
           Share        ì:
                            Applicant                    PW Number             . Approved
         (75%)        !;
                                                                                                                ¡.
 California Department of           Transportation               1                 $12,867             $9,650   \
                                                                                                                i
 California Department of Forestry and                                                                          i

 Fire Protection                                                 2
              4,370,224         3,277,668    j

 California Department of 
 Forestry and                PW missing/not
                                         i;
                                                                                                                I:
                                                                                                                i;
 Fire Protection                                          submitted *           3,831,018          2,873,264    I'
                                                                                                                ,:
                                                                                                                !J
 California Highway Patrol                                       3                 91,445             68,584
 Los Angeles County                                   4 through 7 and 1 1
        635,665            476,749

 California Offce of           Emergency Services      8,9,10, and 10-1
           88,705             66,529

 Totals                                                                        $9.029.924         $6.772.444


* OES referred to the missing PW as "PW 2- 1 ", even though a PW was never submitted.
                                                                                                                :' ¡




                State of California's Administration of the Fire Management Assistance Grant Program
                                                    for the Pine Fin'

                                                      Page 13

Appendix C
Details Regarding OES Payment Processes and PW Review                                                 I
                                                                                                      ~i .
                                                                                                      ¡
                                                                                                      t
                                                                                                      ¡
      California Department of Forestry and Fire Protection
                     CALFIRE-USFS Cooperative Agreement, PW 2-1

                     The cooperative agreement between CALFIRE and USFS, which was part of
                     an overall paekage submitted to OES, was commonly referred to as PW 2- I,
                     even though a PW was never issued for these incurred costs. Total incurred
                     costs for this package were $3,83 I ,018. Incurred costs submitted and
                     attributable to the CALFIRE-USFS cooperative agreement were $3,691,637,
                     representing about 97% of   the total PW costs. The federal-share amount
                     FEMA reimbursed to OES was $2,873,264.                                           ..í ,


                                                                                                      i i



                     CALFIRE reimbursed USFS based on USFS accounting system reports and
                     subsequently did not review supporting invoices and documentation. Ternis
                     and conditions of 
         the cooperative agreement between CALFIRE and the
                     USFS did not require that USFS provide original source documentation for
                     claimed costs. For example, the agreement stipulates that cost and      labor
                     summary sheets and other applicable transaction registers are acceptable
                     fonns of documentation. The agreement also docs not require USFS to              , !



                     provide CALFIRE with original invoices, receipts, or timesheets.
                     Consequently, CALFIRE personnel processed USFS accounting system
                     reports without reviewing any line-item entries eontained on these reports,
                     merely recording the amount that USFS invoieed as an account payable.
                     CALFIRE management informed us that no one at CALFIRE reviewed
                     supporting documentation that was available at USFS. As required by Section
                     42 of 44 CFR, Part 13, Uniform Administrative Requirements for Grants and
                     Cooperative Agreements To State and Local Governments, records and
                     suppoiiing doeumentation must remain available for 3 years from the datc the
                     final expenditure report is filed.

                     We reviewed USFS accounting reports provided to CALFIRE and found
                     many entries to be unclear. For example, one payroll expense line-item entry
                     read "Misc Employee: $140,228.75." In addition, each page on the USFS
                     accounting report showed that costs were from July 12 through July 24, 2004,
                     dates that were outside the original or amended incident period. Even with the
                     April 30, 2008 Exhibit E change, there were still 3 days charged after the end
                     date of July 21, 2004. Accordingly, costs attributable to the three days were
                     ineligible costs.



                     We contacted USFS in an attempt to review any source documentation that
                     might be available from the CALFJRE-USFS cooperativc agreement. USFS
                     provided us with only a limited amount of documentation, saying that most
                     documentation would be difficult, ifnot impossible, to retrieve. USFS located
                     three mutual-aid invoices fi"om local fire departments totaling $283,427
                     ($2 i 2,570 federal share), which we reviewed for cost eligibility. We


         State of California's Administration of the Fire JVJanagement Assistance Grant Program

                                              for the Pine Fire


                                                 Page 14

Appendix C
Details Regarding OES Payment Processes and PW Review

                     calculated $80,514 of 
claimed costs ($60,386 federal share) incurred beyond

                     the incident period end date, July 21, 2004.


                     Because all other entries on USFS accounting reports were unclear and could
                     not be verified through supporting documentation, and costs were claimed for
                     days outside the incident period, FEMA does not have assurance that the over
                     $2.8 million federal share for the CALFIRE-USFS cooperative agreement was
                     accurately accounted 
 and reported.

                     OES should have conducted a review of costs associated with the cooperative
                     agreement at the time CALFIRE submitted the invoice. OES should have
                     requested and reviewed an appropriate amount of source documentation that
                     could have been available at the time CALFIRE submitted the invoice for PW
                     2-1 in 2005. Under that scenario, OES might have been able to satisfy itself
                     regarding the accuracy of the entire claim.

                     P\V 2-0

                     This PW was submitted by CALFIRE to for $4,370,224 ($3,277,668 federal
                     share). CALFIRE submitted a 37-page PW package to OES that contained
                     detailed accounting-level infonnation on the $4.3 million ineun'ed costs. OES
                     spent less than 4 hours at CALFIRE headquarters reviewing documentation
                     supporting this accounting infonnation.

                     Our review identified $54,367 in ineligible costs that CALFIRE submitted to
                     OES and OES approved:

                          CALFIRE claimed $23,754 in costs that were incurred outside of       the
                          incident period, were inadequately supported, or were billed at an
                          incOlTcct rate.

                         CALFIRE also claimed mutual aid costs (fire depaiiments) of $74,809 that
                         were initially ineligible because they represented costs from July 12,2004,
                         as well as costs beyond July 21, 2004. The April 30, 2008, FEMA
                         amendment changing the incident start date to July i 2 rcverses some of
                         these ineligible costs; however, $30,613 of claimed eosts represent costs
                         beyond July 2 i, 2004.

                    CALFIRE also submitted Overhead Crew Equipment Reports (CDF Forni
                    FC-33) with several internal control deficiencies. Fonn FC-33 reflects labor
                    hours and equipment usage at an incident. Deficiencies included unsigned
                    reports and changes not initialed. When deficiencies of 
 these types occur, no
                    assurance exists that reporting for labor and equipment usage is accurate.




         State of Caliornia's Administration of the Fire Management Assistance Grant Program
                                             for the Pine Fire

                                                         Page is

Appendix C
Details Regarding OES Payment Processes and PW Review

      Los Angeles County
                     Los Angeles County submitted five PWs to OES, accompanied by
                     accounting-level information on incurred costs. Applicant costs submitted by
                     Los Angeles County are a summary of costs incurred by five departments
                     within the Los Angeles County government organizational structure and
                     assembled by the Los Angeles County Administrative Offce, the
                     administrative arm for Los Angeles County. The Los Angeles County
                     Administrative Office is the point-of-contact to OES for grant matters.

                     The Los Angeles County Administrative Office informed us that OES did not
                     request a review of any supporting documentation for the five PWs that were
                     submitted by Los Angeles County. Thus, OES was not in compliance with
                     44 CFR 204.53, Certtfýing costs and payments.

                                                  the five PWs contained errors and inaccuracies.
                     Based on our review, three of 


                     Two of 
the three PWs contained errors that totaled less than $300 and are not
                     being reported here.

                     PW 6, totaling $328,122 ($246,091 federal share), represented costs incurred
                     by the Los Angeles County Sheritrs Depaiiment. The Los Angeles County
                     Sheriffs Depaiiment did not maintain an acceptable level oftime-and­
                     attendance documentation for its employees, a deficiency that the Los Angeles
                     County Administrative Office has identified as being a longstanding issue
                     with the Sheriffs Depaiiment. The Administrative Office has repeatedly

                     asked the Sheriff's Department to maintain time-and-attendance records to
                     include, at a minimum:

                                 ... employee name, employee number, item number, total hours
                                 worked each day and daily variances, and total hours charged to
                                an unusual occurrence code or overtime code ((or State and
                                Federal reimbursable programs). The timecards should be signed

                                by the employee attesting to the hours worked, and certtfied by
                                their supervisors as correct.

                     The Sheriffs Department has not, however, complied with this basic
                     recordkeeping request.

                                    the Sheriffs Department noncompliance with the request to
                     As a result of 


                     maintain timecards, the Los Angeles County Administrative Offiee witWield
                     Pine Fire grant funds ($246,091 federal share) from the Sheriffs Depaiiment
                     that it received from OES, and through the time of our audit, had not released
                     those funds to the Sheriffs Department.




         State of California's Administration of the Fire Management Assistance Grant Program
                                             for tJie Pine Fire

                                                       Page 16

Additional Information and Copies


                             this report, call the Office ofInspector General (OiG) at
To obtain additional eopies of 



(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report allegeù Üauù, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

      · Call our Hotline at I -800-323-8603;

      · Fax the complaint directly to us at (202) 254-4292;

      · Email us at DHSOIGHOTLINE(fdhs.gov; or

      · Write to us at:
                DHS Office of Inspector General/MAIL STOP 2600, Attention:
                Office ofInvestigations - Hotline, 245 Munay Drive, SW, Building 4 i O.
                Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
